Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the City of Dallas, Texas, Police Department
GR-80-00-003November 30, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of two grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the city of Dallas, Texas.  The city received a $2,400,000 grant to hire 32 officers under the Accelerated Hiring, Education, and Deployment (AHEAD) program and $40,000 to train police officers under the Troops to COPS Program.  The purpose of the additional officers was to enhance community policing efforts. 

The city of Dallas did not increase their force level above the number of full-time equivalent (FTE) sworn officers existing during FY 1994 until the final year of the grant.  In fact, their baseline of locally funded officers decreased when they began hiring grant-funded officers.  Additionally, we found that reimbursements included unallowable expenses totaling $1,200,000 charged to the AHEAD grant. 


Requirements for AHEAD grants state that funds may be used to support officers hired after October 1, 1994.  The city of Dallas was reimbursed for two officers hired prior to that date.
	Fourteen officer positions reimbursed under the AHEAD grant were hired by the city of Dallas before the grant commitment date.  The officers were hired as part of the normal hiring process to fill locally funded vacancies.  These officers are in addition to the two officers mentioned previously.

These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix I.